HHS/OIG, Audit - "Follow up Audit of the Medicaid Drug Rebate Program in
Virginia," (A-03-07-00218)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow up Audit of the
Medicaid Drug Rebate Program in Virginia," (A-03-07-00218)
January 31, 2008
Complete
Text of Report is available in PDF format (285 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the State agency had (1) implemented
recommendations made in our previous audit of the Virginia drug rebate program
and (2) established controls over collecting rebates on single source drugs
administered by physicians.  We found the State agency implemented the
recommendations from our prior audit when it implemented its new Medicaid
Management Information System.  However, this new system did not allow the
State agency
to post to the National Drug Code level rebates received for periods prior to
implementation.  The State agency has established controls and
accountability for collecting rebates on single source drugs.  We
recommended that the state agency implement a policy to ensure that its accounting
records reconcile with account receivables reported on the quarterly Form
CMS-64.9.  The State concurred with our finding.